audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the
Arvada, Colorado, Police Department
GR-80-99-021  
September 9, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Arvada Police Department.  The purpose of the grants is to enhance community policing.  Arvada was awarded a total of $1,243,813 to hire 8 new police officers and redeploy the equivalent of 25.7 existing full-time officers from administrative duties to community policing.
	
	We reviewed Arvada's compliance with eight essential grant conditions.  The grant conditions were generally met.  However, we found weaknesses in two areas as identified below.  As a result, we questioned $53,730. 1

Grantee reimbursement requests contained unallowable costs for civilian salaries and fringe benefits.

	Only one of the three positions that Arvada was reimbursed for under the MORE 95 grant had been hired and redeployed to community policing. 
	
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 



Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.